  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


         Audit of Federal Emergency
         Management Agency Public
    Assistance Grant Funding Awarded to
    the City of Richmond California After
         the Loma Prieta Earthquake




OIG-07-26            1        February 2007
City both as an Office of Emergency Services and FEMA employee, we are addressing this report to
FEMA Headquarters for review and comment.

                                        INTRODUCTION

The Ford Assembly Building is a registered historical landmark that first opened in 1931. The Ford
Motor Company used the Ford Assembly Building during World War II as a plant for jeep and tank
construction. In 1955, the Ford Motor Company sold the plant to the University of California and in
March 1979, the City acquired it from the University for $7.7 million and allowed the University to
occupy it until 1984. In 1984, the City rented approximately one third of the Ford Assembly
Building to a commercial bio-technical firm that used the rented space as a laboratory. In December
2004, the City sold the land and most of the Ford Assembly Building (holding onto the portion
subject to coastal/environmental concerns) for $5.4 million after expending $16.2 million in project
costs for repair and mitigation work accomplished after the Loma Prieta Earthquake.

Exhibit A to this report provides a chronology and the key events surrounding public assistance
funding and the general FEMA-approved scope of work for Ford Assembly Building repairs and
mitigation. Exhibit A also details the appeal history associated with the nearly 14½-year project
duration. Exhibit B provides a summary of the Code of Federal Regulations (CFR) provisions for
grantee and subgrantee appeals of FEMA decisions and actions in effect at the time of the City’s
appeals.

                                      RESULTS OF AUDIT

With the Region’s approval, the City spent all of the FEMA funds received for repairs to the Ford
Assembly Building but did not finish the reduced scope of work described in Damage Survey Report
21043 (supplement to Damage Survey Report 78123) before selling the building. The Region did
not implement the final agency determination. Specifically, the Region reduced the scope of
required work approved by the FEMA Director but allowed the City to claim all of the $15.5 million
awarded for disaster repairs and mitigation as a result of the City’s third appeal. Additionally, the
Region further reduced the scope of work approved in the Director’s determination and did not
ensure that the City complied with grant requirements. In this regard, the City sold the Ford
Assembly Building before completing the 12 specific work items contrary to specific conditions of
the final grant award (see Exhibit C). Also, while FEMA provided $16.2 million for Ford Assembly
Building architectural, engineering, repair, and mitigation costs, the City sold the Ford Assembly
Building to a developer in December 2004 for $5.4 million, bringing into question the efficacy of the
project. Therefore, we question total project funding of $16.2 million (FEMA’s share is
$12.2 million).

FEMA Region IX Exceeded Its Authority and Did Not Require the City to Comply with the
Terms and Conditions of the Grant Award

The Region exceeded its authority when it overrode the FEMA Director’s third and final appeal
determination. Specifically, the Region reduced the required scope of work, including work required
to comply with the Americans with Disabilities Act. Also, the Region did not require the City to
comply with grant requirements. As discussed below, the City (1) did not comply with specific
terms and conditions of the final grant award because it did not complete the scope of work
approved and funded by FEMA and (2) abrogated its legal responsibility for the Ford Assembly
Building when the City sold it to a private developer.

                                                 2
•   FEMA Region IX Disregarded the FEMA Director’s Scope of Work Determination

    As shown in Exhibit A to this report, the FEMA Director provided the City with a final agency
    determination in July 1997, bringing an end to the City’s administrative appeal rights relating to
    the scope of disaster damage and related funding for the project. The third appeal determination
    provided a total of $15.5 million for disaster repairs and mitigation to the Ford Assembly
    Building, including funding for one Americans with Disabilities Act-compliant passenger
    elevator, repairs to other elevators, and other Americans with Disabilities Act upgrades for the
    portion of the building in use at the time of the earthquake (such as widening some doors, adding
    handicap hardware and making a portion of the existing bathrooms Americans with Disabilities
    Act compliant). While the Director’s determination was specific as to the project’s scope of work
    and funding, and gave the City notice that its administrative appeal rights had been exhausted, on
    July 29, 2002, the Region reduced the scope of required work and yet still allowed the City to
    claim all of the $15.5 million the Director awarded for disaster repairs and mitigation.

    The reduced scope of work did not require the City to comply with the Americans with
    Disabilities Act although the appeal decisions earmarked specific funding for an Americans with
    Disabilities Act-compliant elevator. FEMA issued its Public Assistance Guide (FEMA 286,
    September 1996) prior to the Director’s determination and in it indicated that the requirements
    for access to buildings by persons with disabilities as specified in the Americans with Disabilities
    Act apply to restorations under the Stafford Act.3 While the second and third appeal
    determinations provided additional project funding for Americans with Disabilities Act
    upgrades, the Region did not include the Americans with Disabilities Act work in the revised
    scope when it approved supplemental Damage Survey Report 21043.

    Section 423 of the Stafford Act, 42 U.S.C. § 5189a, allows disaster assistance applicants to
    appeal FEMA’s decisions regarding eligibility and funding, and 44 CFR § 206.206 implements
    the statutory provisions of the Act by providing guidance on the timeframes for submitting and
    adjudicating appeals by subgrantees (see the Exhibit B). While the 7½ years taken to adjudicate
    the three City appeals far exceeded the established statutory timeframes, the Region was bound
    by those regulations to take appropriate implementing action based on the Director’s third and
    final appeal determination. We based this conclusion on the regulatory provisions of 44 CFR §
    2.2(a) and 44 CFR § 2.4(a) that indicate:

         o The Director is the head of FEMA.

         o     All authorities of FEMA are either vested in the Director by statute or have been
              transferred to or delegated to the Director.

         o All powers and duties not delegated by the Director are reserved to the Director.

    Thus, the Region exceeded its authority when it reduced the scope of work specified in the
    Director’s determination. Further, the Region’s files and correspondence on the project lacked
    the documentation necessary to justify its actions. We could only conclude that the Region’s
    actions were taken to effect resolution of longstanding scope of work and funding issues and
    closure of a project that remained open for about 14½ years. As previously indicated, FEMA

3
 FEMA’s Public Assistance Policy Digest (FEMA 321), issued October 2001, provided additional Americans with
Disabilities Act eligibility guidelines and indicated that for buildings eligible for repair, FEMA will fund the full cost of
Americans with Disabilities Act-relevant repairs to the damaged elements of the facility. Also see 44 CFR §206.226(b).
                                                              3
    and Office of Emergency Services records showed that the City expressed concerns about
    meeting the requirements of the grant and believed the project was not in the best interest of the
    City. However, rather than terminating the project because the City was uncertain as to if, how,
    or when the disaster repair work would be done, the Region allowed the City to expend and
    claim $15.5 million for disaster repairs for a reduced scope of work over the course of about
    14½ years.

•   FEMA Region IX Did Not Require the City to Comply with the Terms and Conditions of
    the Grant Award

    As further discussed in Exhibit A to this report, the FEMA Director’s third appeal decision in
    July 1997, determined the eligible funding to be $16,226,089 for this project’s identified scope
    of work. In a letter dated July 28, 1998, FEMA informed the City that FEMA does “…not
    require that funds for specific items of approved work be tracked to those particular items of
    work. The work for which FEMA funding was approved must, however, be completed before
    the final FEMA-approved completion date.” In July 1998, the project completion deadline was
    December 31, 1998. All the involved parties acknowledged that this was not a realistic
    completion date; however, FEMA indicated it would approve further deadline extensions as long
    as the City continued to make progress in completing the Ford Assembly Building project. In
    the same July 1998 letter, the Region required the City to complete the FEMA-funded repair
    work prior to transferring title to a developer or buyer. We noted that in February 2002, project
    documentation reflected a completion deadline of September 29, 2000 but little actual progress
    had been made in the rehabilitation of Ford Assembly Building. For reasons not clear in project
    documentation, the Region reduced the scope of work in July 2002 but not the funding amount
    approved through the third appeal and imposed the following terms and conditions regarding the
    grant:

       o Complete the reduced scope of work, consisting of 12 specific items by March 31, 2003
         (see Exhibit C),

       o Complete repairs to the entire building before selling Ford Assembly Building, and

       o Spend the entire $16,226,089 funded for this project by the March 31, 2003 deadline
         ($743,306 funded for architectural and engineering fees to determine the scope of disaster
         damage and $15,482,783 funded for repairs).

    Of the three requirements, the City only met the third - it had spent the $16.2 million by the
    March 31, 2003 deadline. According to the contractor records we reviewed, the City did not
    finish 3 of the 12 items required by March 31, 2003: (1) repair the south wall, (2) replace the
    monitor sash frames, and (3) complete repair of the fire sprinkler system. In fact, the monitor
    sash frames were not fully repaired until September 30, 2005, 9 months after the building was
    sold to a developer. City officials told us that based on direction provided by FEMA, the City
    met the requirements of the grant when the funds were exhausted, irrespective of the level of
    disaster work completed.

    As previously stated, the Region established another grant requirement in supplemental Damage
    Survey Report 21043 (July 29, 2002) wherein the City was informed, “…The eligibility of the
    facility is predicated on it remaining the legal responsibility of the subgrantee until all work
    approved in this Damage Survey Report is completed….” Because the City sold the building

                                                   4
   prior to completing the work, it failed to retain legal responsibility for the work and thus, was not
   eligible for public assistance funding. According to 44 CFR § 206.223 (a)(3), to be eligible for
   financial assistance, an item of work must be the legal responsibility of an eligible applicant. In
   addition, 44 CFR § 206.204, Requests for time extensions, established the regulatory procedures
   for extending the project performance periods and indicates if a project is not completed within
   the approved schedule no federal funding will be provided for that project. In this case, the
   project was not completed before the City’s legal responsibility for the repairs and mitigation
   ended with the sale of the Ford Assembly Building in December 2004.

   We question FEMA’s decision that allowed the City to keep and use public assistance funding
   for a project that: 1) did not comply with grant requirements, and 2) did not invest federal dollars
   effectively. In addition to selling the Ford Assembly Building prior to complying with grant
   requirements and after spending all of the $16.2 million in federal funding, the City sold a part of
   the property for substantially less than the federal investment. Thus, FEMA’s funding for this
   project did not provide any immediate benefit to local governments and communities.

Summary. We concluded that since the City did not comply with grant requirements, it was not
eligible to receive the $16,226,089 FEMA provided for repairs to the Ford Assembly Building under
Damage Survey Report 78123. Project records showed that the City did not complete the reduced
scope of work prior to the stated March 31, 2003 deadline or prior to the December 2004 sale of the
building. Since the City failed to comply with the grant requirements by not completing the project
within the specified deadlines and by selling the building before the project scope was completed,
the project is ineligible for FEMA funding, as explained in 44 CFR § 206.204(d)(2). Therefore, as
allowed by 44 CFR § 13.43(a)(2), Enforcement: Remedies for Noncompliance, we recommend that
FEMA disallow the $15.5 million for repairs/mitigation and the $743,306 for earlier funded
architectural and engineering costs, for total questioned costs of $16,226,089.

                                     RECOMMENDATIONS

We recommend that the Director, Recovery Division, FEMA Headquarters:

1. Require FEMA Region IX to abide by and carry out FEMA Headquarters appeal decisions and
   develop a method to track appeal decisions and their final regional resolutions; and

2. Require that FEMA Region IX, in coordination with the Office of Emergency Services, disallow
   $16,226,089 since the City did not comply with the terms and conditions of the grant award.

              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW UP

We communicated the results of this audit to City and Office of Emergency Services officials on
September 6, 2006. Those officials did not agree with our conclusion that FEMA should disallow
the questioned costs. We also discussed the audit results with FEMA on September 18, 2006.
FEMA withheld comments pending receipt of this report.

Please advise this office within 90 days, of any actions taken in response to the recommendations in
this report. Should you have any questions, please contact me at (202) 254-4100, or your staff may
contact Robert Lastrico, Western Regional Director, Office of Disaster Assistance Oversight, at
(510) 637-1461. Key contributors to this assignment were Humberto Melara, Trudi Powell, and
Willard Stark.

                                                   5
                                                                                                       Exhibit A
                                                                                                      Page 1 of 4


                                   Chronology and Key Events
                  Public Assistance Funding, Scope of Work, and Appeal History

                                                                                              Time        Total
                                                                                            Between      Elapsed
Event        Date                                   Description                              Events       Time
  1      Oct. 17, 1989    The Loma Prieta Earthquake occurred.                                 --           --
  2      Dec. 18, 1989    The City forwarded its first appeal documentation to the        2 months     0.2 years
                          Office of Emergency Services challenging FEMA’s
                          $272,000 damage repair estimate.
  3      Aug. 14, 1991    The Office of Emergency Services forwarded the City’s first     20 months    1.8 years
                          appeal to FEMA Region IX (Region).
  4       Jul. 21, 1995   The Region rendered its first appeal determination awarding     47 months    5.8 years
                          $3.7 million in public assistance funding.
  5       Jan. 12, 1996   The City submitted its second appeal to FEMA’s Associate        5 months     6.2 years
                          Director, Response and Recovery Directorate requesting
                          replacement versus repair of the Ford Assembly Building at
                          an estimated cost of $112.4 million.
  6       Jul. 02, 1996   FEMA’s second appeal determination awarded                      5 months     6.6 years
                          $13.2 million for repairs and seismic mitigation and
                          classified the project as an “improved project”.
  7       Jan. 31, 1997   The City exercised its third appeal right.                      7 months     7.2 years
  8       Jul. 16, 1997   The FEMA Director’s third appeal determination became           5 months     7.6 years
                          effective with $16.2 million in total approved funding.
  9      Dec. 11, 2001    City Council Resolution 174-01 stated that the public           53 months    12.0 years
                          welfare would not be best served by restoring the Ford
                          Assembly Building or the function of that facility.
  10     Feb. 13, 2002/   The City requested that an “alternate project” be approved in   3 months     12.2 years
         Mar. 01, 2002    lieu of repairing the Ford Assembly Building because the
                          City could not guaranty success in restoring the Building.
  11     Mar. 28, 2002    The Region informed the Office of Emergency Services that       1 month      12.3 years
                          the City would not pursue the alternate project and that the
                          City must complete the work before March 31, 2003.
  12      Jul. 29, 2002   The Region approved the supplemental funding authorized         4 months     12.7 years
                          by the FEMA Director on July 16, 1997 (the third appeal
                          determination was made 5 years prior to providing the
                          funding). According to City officials, the Region verbally
                          informed the City that it needed only to expend approved
                          project funding on whatever scope of work could be
                          completed by March 31, 2003.
  13     May 5, 2004      The Region considered the City’s grant application closed.      17 months    14.4 years
  14    December 2004     The City sold the land and most of the Ford Assembly                 --           --
                          Building for $5.4 million after expending $16.2 million in
                          project funding.


Pages 2 through 4 of this exhibit provide additional details regarding each of the listed events.
Exhibit B provides 44 CFR § 206.206 appeal provisions in effect at the time of the City’s appeals.




                                                        6
                                                                                         Exhibit A
                                                                                        Page 2 of 4


Event 1.   The 1989 Loma Prieta Earthquake caused extensive damage to the Ford Assembly
           Building that was only about one third occupied at the time of the disaster. Because
           two thirds of the building was idle space or vacant, FEMA determined that only the
           occupied portion of the building was eligible for public assistance funding and
           estimated that eligible damage repairs would cost about $272,000.

Event 2.   The City appealed the Region’s funding determination when it forwarded appeal
           documentation to the Office of Emergency Services for submission to the Region. In
           that first appeal, the City challenged the Region’s funding determination ($272,000),
           arguing that the building should be completely repaired because it was part of a
           redevelopment plan. In the appeal, the City claimed that it had started negotiations
           with a developer interested in entering exclusive negotiations with the City regarding
           the building. The City had suspended negotiations with the developer a month before
           the earthquake, and was in the process of determining what to do next when the
           earthquake occurred. Representatives of the City assured the Office of Emergency
           Services that had the earthquake not occurred, further short-term rentals would have
           been arranged.

Event 3.   The Office of Emergency Services forwarded the City’s first appeal to the Region.

Event 4.   The Region’s first appeal determination resulted in the award of $3.7 million to repair
           the entire building.

Event 5.   The City rejected the Region’s funding proposal for complete building repairs and
           proposed in a second appeal to FEMA’s Associate Director, Response and Recovery
           Directorate, a major change to the scope of work. The City proposed demolishing
           and replacing the Ford Assembly Building, complete with upgrades to existing codes
           and standards. The City claimed that based on the 50 percent rule, the Ford
           Assembly Building was eligible for replacement. (44 CFR § 206.226(c) states that a
           facility is considered repairable if the costs of the damage repairs do not exceed
           50 percent of replacing the facility. The regulation implies that if the repairs cost
           more than 50 percent of a new facility, the new facility is warranted.) The City
           estimated a replacement cost of $112.4 million that included ineligible building code
           upgrades, fire and life safety codes, and zoning, as well as $21 million for a 2-story
           parking garage and landscaping. Repair costs were estimated at $81.6 million.

Event 6.   FEMA’s second appeal determination approved $13.2 million for building repairs and
           seismic bracing (hazard mitigation), and classified the project as an improved project
           (44 CFR § 206.203(d)(1) defines an improved project as a funding option wherein a
           subgrantee (a) elects to make improvements but still restore the pre-disaster function
           of a damaged facility and (b) agrees that federal funding for such projects is limited to
           the federal share of the approved estimate of eligible costs.) FEMA’s second appeal
           analysis did not result in wholesale improvements to the facility, as it was in disrepair
           at the time of the disaster. Rather, FEMA examined each area of the damaged facility


                                               7
                                                                                        Exhibit A
                                                                                       Page 3 of 4


           and used best estimates and FEMA guidelines to place a dollar value on eligible
           repairs.

Event 7.   The City exercised its regulatory third appeal rights by asking the FEMA Director to
           review the Associate Director’s second appeal determination.

Event 8.   The FEMA Director upheld the Associate Director’s decision but approved an
           additional $2.3 million for disaster repair/mitigation work that was not included with
           the City’s second appeal. This work consisted of rehabilitating two historic elevators,
           adding an Americans with Disabilities Act-compliant passenger elevator, and
           repairing the electrical system including installing new main transformers, a 15KV
           feeder, and conduits. Repair funding authorized as a result of the third appeal totaled
           $15.5 million plus $743,306 for earlier funded architectural and engineering costs
           (total project funding equaled $16.2 million).

Event 9.   City Council Resolution 174-01 stated that the public welfare would not be best
           served by restoring the Ford Assembly Building or the function of that facility.

Event 10. The City twice requested that the Ford Assembly Building repair project be discarded
          and that FEMA approve an alternate project (44 CFR § 206.203(d)(2) defines an
          alternate project as a funding option wherein a subgrantee (a) determines that the
          public welfare would not be best served by restoring a damaged public facility and
          (b) agrees that federal funding for such projects will be limited to 90 percent of the
          federal share of the approved estimate of eligible costs). In one of those requests, the
          City informed FEMA that it did not guaranty success in restoring the Ford Assembly
          Building. While the City informed FEMA that it would continue to pursue Ford
          Assembly Building rehabilitation, it indicated that the earliest a groundbreaking
          ceremony could occur was in early 2003. Because of these delays, the City’s
          alternate project proposed the purchase of a building to serve as its City Hall.

Event 11. The Region’s Director of the Readiness, Response and Recovery Division informed
          the Office of Emergency Services that the City had decided not to pursue the alternate
          project. The Region also informed the Office of Emergency Services that the City
          had until March 31, 2003 to complete the scope of work outlined in the appeal
          determinations and to expend the funding.

Event 12. The Region approved supplemental Damage Survey Report 21043 (supplemental to
          Damage Survey Report 78123) that added the funding and additional work approved
          by the FEMA Director on July 16, 1997. According to City officials, the Region
          verbally informed the City that it needed only to expend approved project funding on
          whatever scope of work could be completed by March 31, 2003. The supplemental
          Damage Survey Report also required that the City comply with certain conditions,
          one of which stated, “…The eligibility of the facility is predicated on it remaining the
                                                                                         Exhibit A

                                              8
                                                                                      Page 4 of 4


           legal responsibility of the subgrantee until all work approved in this Damage Survey
           Report is completed…” (44 CFR § 206.223(a) requires applicants to have legal
           responsibility for an item of work to be eligible for federal assistance). An
           attachment to the supplemental Damage Survey Report also provided 12 specific
           work items that the City needed to complete to satisfy the requirements of the grant.
           These 12 specific work items were included in Damage Survey Report 21043 as
           ‘Attachment A’. See Exhibit C of this report for the listed work.

Event 13. The Region considered this grant application closed after it determined that the
          project funds totaling $16.2 million had been expended.

Event 14. The City sold the land and most of the Ford Assembly Building (holding onto the
          portion subject to coastal/environmental concerns) for $5.4 million after expending
          $16.2 million in project funding but before completing the scope of work approved in
          the Director’s third appeal determination.




                                              9
                                                                                              Exhibit B


                          44 CFR § 206.206 Appeal Provisions Summary

A subgrantee shall make a written appeal to the grantee within 60 days after receipt of notice of an
action that is being appealed.

The grantee shall review the material/justification submitted by a subgrantee, conduct additional
investigation if needed, and forward the appeal with a written recommendation to the Regional
Director within 60 days of receipt.

The Regional Director shall review the material/justification submitted by the grantee and
subgrantee, conduct additional investigation if needed, and notify the grantee in writing as to the
disposition of the appeal or the need for additional information within 90 days of receipt. (If
additional information is needed to make a determination, the Regional Director shall notify the
grantee in writing of the disposition of the appeal within 90 days of receipt of the additional
information).

If the Regional Director denies the first appeal, the subgrantee may submit a second appeal in
writing (through the grantee and Regional Director) to the Associate Director within 60 days of the
Regional Director’s first appeal denial. The Associate Director shall render a determination on the
subgrantee’s second appeal within 90 days of receipt of the appeal or shall make a request for
additional information if needed. (If additional information is needed, the Associate Director shall
notify the grantee in writing of the disposition of the appeal within 90 days of receipt of the
additional information). If the Associate Director grants the second appeal, the Regional Director
will be instructed to take appropriate implementing action.

If the Associate Director denies the second appeal, the subgrantee may submit a third appeal in
writing (through the grantee and Regional Director) to the FEMA Director within 60 days of the
Associate Director’s second appeal denial. The Director shall render a determination on the
subgrantee’s third appeal within 90 days of receipt of the appeal or shall make a request for
additional information if needed. (If additional information is needed, the Director shall notify the
grantee in writing of the disposition of the appeal within 90 days of receipt of the additional
information). If the Director grants the third appeal, the Regional Director will be instructed to take
appropriate implementing action.

Note: The City’s third appeal for the Ford Assembly Building was filed in 1997. At that time, the
CFR allowed three appeals for FEMA projects.




                                                  10
                                                                                                Exhibit C


                 Statement of Work Attached to Damage Survey Report 21043

Damage Survey Report 21043 instructed the City to disregard the scope of work in previously
approved Damage Survey Reports and to complete Ford Assembly Building Phase 1 work described
in Attachment A to Damage Survey Report 21043 by March 31, 2003. Although this action
decreased the scope of work approved by the FEMA Director in his third appeal determination, the
Region did not decrease the approved funding commensurately.

Attachment A to Damage Survey Report 21043 states, “The scope of work is limited to the first
phase of work, proposed to be completed by March 31, 2003. The first Phase work, as generally
described includes; preliminary testing and evaluation, site security, abatement of hazardous
materials, stabilization of the building shell and core, seismic bracing, project management, required
historical preservation, environmental compliance, design, and engineering.”

“The Phase 1 scope of work includes the general work previously described and the following,
specific work elements:

   1.      Remove and/or abate on-site hazardous materials as required by regulating agencies.

   2.      Removal, (sic) of the canopy and sheds along the east side of the building. The sheds are
           considered non-contributors in the National Register Nomination form.

   3.      Mothball the boiler house and oil house in accordance with the NPS Preservation Brief:
           Mothballing Historic Buildings, which includes stabilizing and making weather tight.

   4.      Earthquake damaged exterior brick masonry will be removed and reset.

   5.      Reconstruct south wall and parapet with masonry to match original, over lightweight
           metal framing.

   6.      Repair, reinstall, and anchor limestone parapet caps. Replace missing caps in-kind.

   7.      Repair the steel sash in all exterior walls and replace broken glazing.

   8.      Repair existing corrugated transite roof.

   9.      Repair existing clay tile roof over office area.

   10.     Replace saw-tooth monitor sash (due to poor condition) frames, with an aluminum
           system similar to the original, using wire glass.

   11.     Install a light steel cable system attached to welded steel plates for seismic stability.

   12.     Repair and modify fire sprinkler system as required by regulating agencies to meet Phase
           1 requirements.”

                                                   11
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.




                                             12
